              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Allocation of Direct and Indirect
Costs – Cost Accounting Standard
418 – at Lawrence Livermore
National Laboratory




OAS-L-13-07                        April 2013
                                  Department of Energy
                                    Washington, DC 20585

                                          April 11, 2013



MEMORANDUM FOR THE MANAGER, LIVERMORE SITE OFFICE



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Allocation of Direct and
                         Indirect Costs – Cost Accounting Standard 418 – at Lawrence
                         Livermore National Laboratory"


BACKGROUND

The attached report presents the results of the audit of Lawrence Livermore National
Laboratory's (Livermore) Allocation of Direct and Indirect Costs - Cost Accounting Standard
418, conducted to address the performance audit objective described below. The Office of
Inspector General contracted with an independent certified public accounting firm, KPMG, to
determine if Livermore's policies, procedures, and practices used to estimate, accumulate, and
report costs on Government contracts and subcontracts complied with the requirements of Cost
Accounting Standard (CAS) 418 for Fiscal Year 2012.

CAS 418 requires contractors to be consistent in the way they classify costs as direct or indirect.
Additionally, CAS 418 requires contractors to maintain a written statement of accounting
policies and practices for classifying direct and indirect costs, establishes criteria for
accumulating indirect costs in homogeneous indirect cost pools, and provides guidance on
allocating indirect cost pools to cost objectives in reasonable proportion to the beneficial or
causal relationships of the pooled costs to cost objectives. Livermore's written policies and
procedures relevant to CAS 418 compliance include cost accounting changes, determining direct
versus indirect costs, monitoring and processing cost transfers, time and effort reporting,
monitoring and liquidating indirect variances, and policies and procedures relating to the
composition of each indirect cost pool.

OBSERVATIONS AND CONCLUSIONS

KPMG found that Livermore's policies and procedures were complete with regard to the areas
required to support compliance with CAS 418. KPMG tested Livermore's current use of its
policies and procedures governing cost accounting changes, monitoring and liquidating indirect
                                               2


rate variances, monitoring and processing cost transfers, and the composition of homogeneous
cost of select indirect cost pools. KPMG did not identify any findings as a result of the work
performed. Therefore, no recommendations were made in the report.

PERFORMANCE AUDIT

KPMG conducted the performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the Department of Energy's Office of
Inspector General Audit Manual as appropriate. Government Auditing Standards require that
KPMG plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on the audit objective.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which KPMG, did not comply, in
all material respects, with the audit requirements. KPMG is responsible for the attached report
dated January 17, 2013, and the conclusions expressed in the report.


Attachment

cc: Acting Administrator, National Nuclear Security Administration
    Deputy Secretary
    Chief of Staff
    Attachment




1
    Attachment (continued)




2
    Attachment (continued)




3
    Attachment (continued)




4
    Attachment (continued)




5
    Attachment (continued)




6
    Attachment (continued)




7
    Attachment (continued)




8
    Attachment (continued)




9
     Attachment (continued)




10
     Attachment (continued)




11
                                                                   IG Report No. OAS-L-13-07

                          CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:

                U.S. Department of Energy Office of Inspector General Home Page

                                         http://energy.gov/ig

    Your comments would be appreciated and can be provided on the Customer Response Form.




 
